                           U.S. Department of Agriculture

                              Office of Inspector General
                                       Southwest Region




                Audit Report
Cooperative State Research, Education, and Extension
             Service’s Implementation of
  Agricultural Research, Extension, and Education
                 Reform Act of 1998




                                   Report No. 13001-3-Te
                                            August 2004
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250


DATE:          August 16, 2004

REPLY TO
ATTN OF:       13001-3-Te

SUBJECT:       CSREES - Implementation of AREERA

TO:            Colien Hefferan
               Administrator
               Cooperative State Research, Education, and Extension Service

ATTN:          Louise Ebaugh
               Deputy Administrator
               Office of Extramural Programs


This report presents the results of our audit of the Cooperative State Research, Education, and
Extension Service’s implementation of the 1998 Agricultural Research, Extension, and Education
Reform Act. Your agency’s response to the draft report is included as exhibit B with excerpts and
the Office of Inspector General’s position incorporated into the relevant sections of the report.

Based on the response, management decisions have been reached on Recommendations Nos. 1, 2,
3, 4, 5, 6, 7, 8, 9, 10, 11, 13, 14, 15, and 17. Follow your internal agency procedures in forwarding
final action correspondence to the Office of the Chief Financial Officer, Planning and
Accountability Division. Documentation and/or actions needed to reach management decisions for
Recommendations Nos. 12 and 16 are described in the Office of Inspector General’s Position
section of the report.

Please furnish the information needed to reach management decisions on the two remaining
recommendations within 60 days. Please note that Departmental Regulation 1720-1 requires a
management decision for all recommendations within a maximum of 6 months from the date of
report issuance, and final action to be taken within 1 year of each management decision.

We appreciate the courtesies and cooperation extended to us by members of your staffs during the
audit.



        /RWY/
ROBERT W. YOUNG
Assistant Inspector General
 for Audit
Executive Summary
CSREES’ Implementation of the Agricultural, Research, Extension, and Education Reform
Act of 1998 (Audit Report No. 13001-3-Te)

  Results in Brief   Institutions of higher education that were granted land and money to advance
                     agriculture interests have recently been required to focus a percentage of their
                     Federal formula funds on activities addressing regional and national
                     agricultural concerns. The 1998 Agricultural Research, Extension, and
                     Education Reform Act (AREERA) mandated that these land-grant
                     institutions spend some of their Federal monies (formula funds) on multi-
                     State extension and integrated (research and extension) activities beginning in
                     fiscal year 2000. With less than 13 months between passage and
                     implementation, the Cooperative State Research, Education, and Extension
                     Service (CSREES) was responsible for administering the new law. The
                     management control system instituted, however, did not consistently ensure
                     that institutions planned for and spent formula funds in the amounts intended
                     by the law. We consider these matters to be material control weaknesses that
                     should be reported in the agency’s Federal Managers’ Financial Integrity Act
                     reports.

                     The implementation date imposed by the Act gave CSREES little time to put
                     in place the comprehensive regulations, procedures and controls to ensure
                     that institutions spent their formula funds as required. In addition, the
                     CSREES Administrator responsible during implementation had not been in
                     charge when Congress developed the law. Partly as a result of these factors,
                     CSREES faced challenges in applying the complex Act adequately.

                     The law obliged institutions to spend the lesser of 25 percent of their formula
                     funds on required activities or twice the percentage they had spent on such
                     activities in fiscal year 1997. CSREES, however, allowed some institutions
                     to select their own spending level in alleged hardship cases without verifying
                     their claims. (The law did allow CSREES to reduce the required percentage
                     in cases of hardship, infeasibility, and similar circumstances.) When we
                     visited two of the institutions claiming hardship, we determined that no
                     particular hardship or infeasibility kept them from complying with the law.

                     Under CSREES’ stewardship, some institutions were not required to spend
                     their formula funds as intended by Congress while others were. Similarly,
                     CSREES approved some plans of work (required by the law) that did not
                     contain all elements required by AREERA. It also released formula funds to
                     some universities without approved plans of work although approval was a
                     condition for funding.

                     While some institutions followed the rules, CSREES’ ineffective oversight
                     allowed others to circumvent the law’s intent by not (1) correctly calculating
USDA/OIG-A/13001-3-Te                                                                         Page i
                       the percentage of formula funds they were to spend on mandated activities,
                       (2) spending matching funds from their States in the amounts required, and
                       (3) appropriately documenting planned activities.

                       In each case, CSREES should have withheld funding until the institutions
                       met required standards. By releasing over $40 million to institutions that did
                       not qualify for the funds, the Government incurred about $482,400 in
                       additional interest costs. Further, some institutions’ reports to CSREES
                       showed that they did not spend over $14 million on required AREERA
                       activities and others did not match more than $16 million in formula funds.
                       (See exhibit A for a summary of monetary results.)

Recommendation
In Brief               We recommend that CSREES institute effective controls that properly
                       regulate land-grant institutions’ compliance. Specifically, CSREES should
                       ensure that reductions in target percentage are granted only in warranted
                       cases of hardship, infeasibility, or similar circumstances. CSREES should
                       monitor land-grant institutions’ annual reports to ensure expenditures of
                       formula funds for AREERA activities are at the agreed-upon target
                       percentages. Also, CSREES needs to ensure that formula funds are not
                       distributed to institutions until their plans of work fully meet AREERA and
                       CSREES standards, and recover $30 million in Federal funds not spent in
                       accordance with AREERA.

CSREES Response CSREES officials concurred with all findings and recommendations in our
                audit report (see exhibit B). However, while they agreed that control
                weaknesses did exist with regard to the agency’s implementation of
                AREERA, they expressed the opinion that because of the corrective actions
                initiated or planned by the agency it was not necessary to report the control
                weaknesses as “material” in the agency’s Federal Managers’ Financial
                Integrity Act reports. Also, they commented that once they have reviewed
                the institutions’ full support for multi-State extension and integrated activity
                expenditures and support for State matching expenditures, it may not be
                necessary to recover the full $30 million OIG identified as unsupported costs.

OIG Position           We have accept CSREES’ management decisions for 15 of the 17
                       recommendations. Full implementation of the corrective action measures
                       CSREES’ outlined in its response to the audit should alleviate the control
                       weaknesses identified by our audit. Further, we acknowledge that to the
                       extent CSREES’ followup efforts obtain additional supporting evidence
                       related to the institutions’ AREERA activity expenditures, the amount of OIG
                       unsupported costs should be reduced. We have explained in the Findings and
                       Recommendations section of the report the actions CSREES needs to take for
                       final action.



USDA/OIG-A/13001-3-Te                                                                         Page ii
Abbreviations Used in This Report

Annual Report      Annual Report of Accomplishments and Results
AREERA             Agricultural Research, Extension, and Education Reform Act of 1998
CSREES             Cooperative State Research, Education, and Extension Service
FY                 Fiscal Year
LGI                Land-grant Institution
NARETPA            National Agricultural Research, Extension, and Teaching Policy Act of 1977
NPL                National Program Leader
OCFO/PAD           Office of the Chief Financial Officer/Planning and Accountability Division
OIG                Office of Inspector General
OMB                Office of Management and Budget
POW                Plan of Work




USDA/OIG-A/13001-3-Te                                                                  Page iii
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 4

    Section 1. Inconsistent Base Percentage Calculation..................................................................... 4

        Finding 1             Selection of Target Percentages Inconsistent With Congressional Intent............... 4
                                  Recommendation No. 1.................................................................................... 7
                                  Recommendation No. 2.................................................................................... 8
                                  Recommendation No. 3.................................................................................... 9

    Section 2. CSREES Controls Over Compliance With AREERA Requirements ...................... 10

        Finding 2             Formula Funds Released Without POWs Meeting AREERA Requirements
                              for Approval .......................................................................................................... 10
                                   Recommendation No. 4.................................................................................. 14
                                   Recommendation No. 5.................................................................................. 15
                                   Recommendation No. 6.................................................................................. 15
                                   Recommendation No. 7.................................................................................. 16
        Finding 3             CSREES Did Not Ensure That LGIs Reported Spending Formula Funds at
                              Required Levels..................................................................................................... 16
                                   Recommendation No. 8.................................................................................. 19
                                   Recommendation No. 9.................................................................................. 20
                                   Recommendation No. 10................................................................................ 20
                                   Recommendation No. 11................................................................................ 21
                                   Recommendation No. 12................................................................................ 21
                                   Recommendation No. 13................................................................................ 22
                                   Recommendation No. 14................................................................................ 23
        Finding 4             1890 LGIs Report Not Matching Formula Funds ................................................. 23
                                   Recommendation No. 15................................................................................ 25
                                   Recommendation No. 16................................................................................ 25

    Section 3. Governor’s Report......................................................................................................... 27

        Finding 5             Governor’s Report No Longer Required By CSREES ......................................... 27
                                 Recommendation No. 17................................................................................ 27

General Comments ............................................................................................................................... 29

USDA/OIG-A/13001-3-Te                                                                                                                        Page iv
Scope and Methodology........................................................................................................................ 30

Exhibit A – Summary of Monetary Results ....................................................................................... 32
Exhibit B – CSREES Response............................................................................................................ 33
Exhibit C – Sites Visited ....................................................................................................................... 42
Exhibit D – LGIs Not Computing Base Percentages ......................................................................... 43
Exhibit E – Improperly Approved POWs .......................................................................................... 44
Exhibit F – Conditionally Approved POWs....................................................................................... 45
Exhibit G – 1862 LGIs Reporting AREERA Expenditure Requirements Not Met –
             FYs 2000/2001.................................................................................................................. 46
Exhibit H – 1890 LGIs Reported Formula Funds Not Matched –
             FYs 2000/2001.................................................................................................................. 48




USDA/OIG-A/13001-3-Te                                                                                                                     Page v
Background and Objectives
Background                            An agency of the U.S. Department of Agriculture, CSREES manages
                                      programs that support institution-based agricultural education, research, and
                                      extension activities.1 In particular, CSREES administers Federal agricultural
                                      funds allocated to institutions that have received land and predetermined
                                      amounts of Federal funding (formula funds). These institutions are referred to
                                      as land-grant institutions (LGI) and are identified by the year of the Act
                                      vesting them.2 Through the years, Congress has promulgated a series of laws
                                      that require LGIs to spend their formula funds on activities that advance
                                      specific agriculture interests.3

                                      With passage of AREERA on June 23, 1998, Congress required LGIs to
                                      focus a percentage of their formula funds on activities that addressed regional
                                      and national agricultural concerns by way of cooperative and integrated
                                      activities. In addition, CSREES required each institution by July 15, 1999, to
                                      detail a 5-year plan of work (POW) that explained how current and future
                                      programs would meet AREERA requirements. AREERA required the
                                      Secretary/CSREES to develop controls to evaluate the success of multi-State,
                                      multi-institutional, and multidisciplinary extension/research activities and
                                      joint research and extension activities in addressing critical agricultural issues
                                      identified in the POWs.

                                      CSREES published administrative guidance for multi-State extension and
                                      integrated activities on its Web site on April 28, 2000. The administrative
                                      guidance and AREERA required States disbursing Federal money to 1862
                                      LGIs to spend a given percentage of formula funds from fiscal year (FY)
                                      2000 forward (target percentage) on multi-State extension and integrated
                                      (research and extension) activities. That amount could be either 25 percent of
                                      a FY’s formula funds or twice the formula funds they had spent on similar
                                      activities in FY 1997 (base percentage), whichever was less.4

                                      For institutions that chose not to commit 25 percent of their formula funds,
                                      CSREES required documentation supporting how they had calculated their
                                      base percentage so it could make certain the LGIs would spend the

1
  Extension activities include practical research, publication of research results, informal education, and surveying those who use agricultural research.
2
  The First Morrill Act of 1862 and the Second Morrill Act of 1890 granted land to States in order to establish institutions devoted, among other things, to
agriculture. Colleges and universities established by way of the First Morrill Act are known as 1862 LGIs and those established by way of the Second
Morrill Act are known as 1890 LGIs.
3
  The Hatch Act of 1887, the Smith-Lever Act of 1914, and the National Agricultural Research, Extension, and Teaching Policy Act of 1977 (NARETPA),
distribute formula funds.
4
  To clarify, base percentage is the percentage of FY 1997 formula funds that institutions spent on activities now mandated by AREERA. Target
percentage is the percentage of formula funds from FY 2000 forward that institutions are required to spend on certain activities. Unless reduced by
authority of the Secretary, target percentages have to be the lesser of twice the base percentage, or 25 percent of a FY’s formula funds. For example, an
institution that spent $100,000 out of $1 million in formula funds on required activities in FY 1997 would have a base percentage of 10 percent. The
institution’s target percentage for FY 2000, then, would be 20 percent of whatever formula funds it received for that year (or 25 percent if it selected that
option). CSREES used the terminology “target” to describe AREERA’s expenditure requirements but AREERA simply calls them “required expenditures”
(Public Law 105-185 §§ 105(h)(2)(B) and 204(i)(2)(B)).
USDA/OIG-A/13001-3-Te                                                                                                                              Page 1
                                    appropriate amount of formula funds (twice the base percentage) on
                                    mandated activities.

                                    CSREES’ April 2000 administrative guidance required institutions to submit,
                                    by July 1, 2000, CSREES forms documenting (1) their computations of their
                                    base percentages for AREERA activities,5 (2) their selections of target
                                    percentages for those activities, and (3) their planned expenditures for
                                    AREERA activities for the next 5 years. However, before those documents
                                    were to be submitted, CSREES published a document on its AREERA Web
                                    site on June 13, 2000, answering frequently asked questions about that
                                    administrative guidance. CSREES’ statements answering those frequently
                                    asked questions offered LGIs that could not calculate their base percentage a
                                    “good faith” exemption, which allowed those LGIs to choose their own target
                                    percentage.6 The exemption, derived from the Secretary’s authority via
                                    AREERA, permitted a reduction in the required percentage in cases of
                                    hardship, infeasibility, or other similar circumstances.7

                                    In all cases, CSREES required each institution to submit a 5-year POW that
                                    described how current and intended programs met AREERA requirements.
                                    The law called for POWs to describe how existing and intended programs
                                    would use the formula and other funds to address critical agricultural
                                    concerns.8 Since POWs had to meet AREERA standards before the
                                    institutions could receive their formula funds, CSREES established a review
                                    process to evaluate the POWs.

                                    Beginning in FY 2000, AREERA required States to provide their 1890 LGIs
                                    with matching funds from non-Federal sources.9 These institutions had to
                                    match 30 percent of their formula funds in FY 2000, 45 percent in FY 2001,
                                    and 50 percent every year thereafter. In order to manage these matching
                                    requirements, CSREES obliged LGIs to report twice annually on the
                                    availability, amount, and source of funds constituting the State matching of
                                    Federal extension and research funds.

Objectives                          Our objectives were to determine whether CSREES established adequate
                                    controls to ensure it had implemented AREERA activities in accordance with
                                    the law, and to ensure that LGIs administered their formula funds to meet the
                                    law’s requirements. Specifically, we examined for 1862 LGIs whether
                                    CSREES was (1) ensuring that LGIs established the appropriate funding
                                    percentages (lesser of 25 percent or twice the FY 1997 expenditures) to put
                                    toward AREERA activities, (2) approving POWs that met AREERA and
                                    CSREES standards, and (3) holding LGIs accountable for funding AREERA

5
  AREERA activities include multi-State extension, integrated extension and integrated research activities.
6
  CSREES’ AREERA Web site contained a document answering frequently asked questions (www.reeusda.gov/part/areera). The document indicated that
the LGIs that were not able to determine their FY 1997 base percentages for AREERA activities could claim that they could not “in good faith” do so.
7
  Public Law 105-185 §105(h)(2)(C)
8
  Public Law 105-185 §§105(h)(2)(D), 202 and 204(a)(i)(D)
9
  Public Law 105-185 §226
USDA/OIG-A/13001-3-Te                                                                                                                     Page 2
                   activities at the levels they committed to. Also, for 1890 LGIs we examined
                   whether CSREES was ensuring LGIs met matching requirements imposed by
                   AREERA.

                   During our audit, we found that CSREES no longer required institutions to
                   submit a yearly detailed report of their extension operations (Governor’s
                   Report) even though the Smith-Lever Act and NARETPA mandate the
                   report. Accordingly, we reviewed CSREES’ claim that the report duplicated
                   information documented by the institutions in other financial statements and
                   was therefore burdensome and unnecessary.




USDA/OIG-A/13001-3-Te                                                                   Page 3
Findings and Recommendations
Section 1. Inconsistent Base Percentage Calculation

                                       CSREES inconsistently applied regulations that obliged 1862 LGIs to spend
                                       the lesser of 25 percent of their formula funds on mandated activities or twice
                                       the percentage they spent in FY 1997 on such activities (base percentage).
                                       When some institutions claimed they could not calculate their base
                                       percentage, CSREES allowed them to select their own spending targets.

                                       In testimony before congressional committees prior to the passage of
                                       AREERA, the CSREES Administrator and others in the agricultural industry
                                       asked that Congress require LGIs to spend 25 percent of their extension
                                       formula funds for integrated and multi-State activities. A former
                                       congressional staffer informed us that Congress believed most institutions
                                       would select this percentage because staffers thought they were already
                                       spending 25 percent. Although AREERA provided LGIs two ways to spend
                                       less than that amount,10 the law worked to ensure that they spent a significant
                                       amount of the formula funds on integrated and multi-State activities. By
                                       inappropriately reducing the percentage that LGIs had to spend, CSREES did
                                       not administer the law so that universities met the law’s requirements.




Finding 1                              Selection of Target Percentages Inconsistent With Congressional
                                       Intent

                                       CSREES improperly allowed 16 LGIs to forgo computing their FY 1997 base
                                       percentages and to select inappropriate target percentages.11 This condition
                                       developed because CSREES provided guidance that conflicted with
                                       AREERA and its own regulations. Also, CSREES had no controls in place
                                       but accepted (at face value) institutions’ claimed inability to account for their
                                       FY 1997 Federal formula funds. As a result, CSREES inequitably applied the
                                       provisions of AREERA among the LGIs.

                                       AREERA required LGIs to compute the percentage of FY 1997 formula
                                       funds expended on integrated research, integrated extension, and multi-State
                                       extension activities (base percentage).12 Once that base percentage was
                                       computed, LGIs were to select a target percentage that was the lesser of
                                       25 percent or twice that base percentage. That target was to be the percentage


10
   (1) The lesser of 25 percent or twice the expenditure in FY 1997, or (2) that amount reduced by the Secretarial waiver for hardship or infeasibility.
11
   See footnote 4 for clarification of the terms “target percentage” and “base percentage.”
12
   Public Law 105-185 §§105(h) and 204(i)
USDA/OIG-A/13001-3-Te                                                                                                                               Page 4
                                    of formula funds expended on those activities in FY 2000 and thereafter.
                                    CSREES regulations allowed LGIs four options.

                                           1.   Option A: 25 percent
                                           2.   Option B: twice the percentage calculated for FY 1997
                                           3.   Option C: a percentage greater than Option B, but less than Option A
                                           4.   Option D: phase in Option C over 3 years 13

                                    In response to LGIs’ complaints about the regulations, CSREES allowed
                                    institutions that claimed to have attempted “in good faith” to compute the FY
                                    1997 base percentage (but were unable to do so) to select Options C or D.14

                                    Although AREERA did not specifically provide for a “good faith”
                                    exemption, it did give the Secretary authority to reduce the required
                                    percentage in cases of hardship, infeasibility, or other similar
                                    circumstances.15 Given this authority, the Office of the General Counsel
                                    indicated the additional options offered by CSREES were within the spirit of
                                    the law only if LGIs really had attempted to calculate their base percentages
                                    “in good faith.” That is, CSREES would have correctly administered the
                                    AREERA funds if it ascertained that the LGIs’ failure to compute their base
                                    percentages resulted from hardship, infeasibility, or other similar
                                    circumstances.

                                    Our review of forms CSREES-BASE and CSREES-TARG for the 51 LGIs
                                    determined that approximately one-third of the LGIs (16) took advantage of
                                    CSREES’ “good faith” exemption and selected options C or D. Of these,
                                    10 chose to devote a small percentage of formula funds, 5 percent or less, to
                                    AREERA-mandated activities. (See exhibit D.) Further, 1 of the 10 LGIs
                                    did not explain on the required forms why it could not compute the base
                                    percentage despite the fact that CSREES required such documentation.

                                    Almost all the LGIs requesting an “in good faith” exemption (15 of 16) did
                                    so on the grounds that their accounting records were not such as would allow
                                    them to determine their base percentage. In effect, they claimed their
                                    accounting systems were not set up to track multi-State extension or
                                    integrated expenditures.

                                    If, however, LGIs’ accounting systems could not tell how and on what their
                                    FY 1997 formula funds had been spent, then the LGIs were not in
                                    compliance with the Office of Management and Budget (OMB) Circular
                                    A-110.16 The circular requires that financial management systems of
                                    institutions receiving formula funds (1) provide accurate and complete

13
   Administrative Guidance for Multistate Extension Activities and Integrated Research and Extension Activities
14
   Frequently asked questions in CSREES’ AREERA web site (www.reeusda.gov/part/areera)
15
   Public Law 105-185 §105(h)(2)(C)
16
   Uniform Administrative Requirements for Grants and Agreements with Institutions of Higher Education, Hospitals and Other Non-Profit Organizations
USDA/OIG-A/13001-3-Te                                                                                                                       Page 5
                                   disclosure of the financial results of each federally-sponsored project or
                                   program, and (2) maintain records that identify the source and application of
                                   funds for federally-sponsored activities.17 In our opinion, inability to
                                   calculate the base percentage due to inadequate accounting records did not
                                   constitute a “good faith” attempt to determine the base percentage.

                                   CSREES did catalogue the target selected by each LGI for every AREERA
                                   activity, and it did check the institutions’ math on forms documenting LGI
                                   calculation of the base and target percentages. However, we found no
                                   evidence that CSREES verified LGIs’ target selections or challenged their
                                   failure to submit forms documenting calculations, and CSREES’ procedures
                                   required no such actions. We visited 2 of the 16 LGIs that had invoked the
                                   “good faith” criteria (Auburn University and Purdue University) in order to
                                   verify their target percentage calculation.

                                   We visited Auburn University because the extension officials had not
                                   submitted the required forms to CSREES to document their base percentage
                                   computations. Narratives in their FY 2000 Annual Report of
                                   Accomplishments and Results18 (annual report) spoke to the inability of their
                                   current accounting system to determine the base percentage. Claiming that
                                   they had tried “in good faith” but failed, the officials subsequently selected
                                   9.8 percent targets for extension activities.

                                   Auburn’s extension officials selected the target percentage by querying only
                                   faculty members, whose salaries were paid with State extension funds, about
                                   their multi-State extension and integrated activity in FY 2000. Auburn
                                   extension officials did not ask employees paid with Federal extension funds
                                   about their multi-State extension or integrated activities in FY 1997. These
                                   Federal extension funds should have been counted in determining Auburn’s
                                   base percentage. Auburn also did not analyze extension publications, or
                                   FY 1997 accounting records, for evidence of integrated extension activities,
                                   research at institutions in other States, or travel expenses that would indicate
                                   multi-State extension expenditures.

                                   In short, Auburn officials provided no evidence of hardship or infeasibility in
                                   determining the percentage of formula funds spent on nonfaculty and
                                   extension employees. Since Auburn did not meet AREERA’s condition for
                                   targeting a lower percentage than mandated, CSREES should not have
                                   allowed them to select a reduced (below 25 percent) percentage of formula
                                   funds to spend on multi-State extension and integrated extension activities.

                                   We also visited Purdue University because its documentation indicated that
                                   although its FY 1997 expenditures exceeded zero for all AREERA activities,

17
  OMB Circular A-110, subpart C, paragraph 21
18
 The Annual Report of Accomplishments and Results is a report required annually by CSREES to keep them informed of LGIs’ progress. (See Finding
No. 2.)
USDA/OIG-A/13001-3-Te                                                                                                                 Page 6
                                      there were no “systems in place at that time (FY 1997) to capture the
                                      expenditures by program/activity.”19 Purdue officials selected CSREES’
                                      Option D, incremental targets of 1, 3 and 5 percent, for all AREERA
                                      activities. When we asked Purdue officials about their selected percentage,
                                      they indicated they had not considered joint appointees’ (split appointees)
                                      activities to be integrated because CSREES’ guidance required joint
                                      appointees’ activities to be integrated to count as integrated activities. Our
                                      examination of CSREES’ guidance indicated it provided conflicting
                                      guidance. According to the guidance CSREES published on its Web site in
                                      the frequently asked questions, split appointments may be used, but the
                                      activity conducted by the individual on split appointments must be integrated.
                                      However, according to CSREES’ Guidance for Multi-State Extension and
                                      Integrated Research and Extension Activities (regulation), a LGI could use
                                      joint research and extension personnel appointments (split appointments) as
                                      an integrated activity. The regulation implied that split appointments were
                                      understood to be integrated activities.

                                      We assessed Purdue’s FY 1997 accounting records of salary payments to
                                      joint appointees, research and extension officials compensated by both
                                      Federal formula extension and research funds. Our analysis indicated that the
                                      FY 1997 base percentage for integrated research and extension activities was
                                      greater than 18 percent requiring a target percentage for Purdue’s integrated
                                      extension and research activities in FY 2000 and thereafter of 25 percent for
                                      both activities.

                                      Unlike Auburn and Purdue, four other LGIs that selected 25 percent, for five
                                      AREERA activities, did so because they could not calculate their FY 1997
                                      base percentage. By complying with AREERA, these institutions faced
                                      expenditure restrictions that other institutions did not. In effect, CSREES
                                      inequitably administered the law and allowed some LGIs to avoid the
                                      congressional intent for LGIs to spend a mandated percentage of their
                                      formula funds on required activities.

                                      Since CSREES did not ensure that LGIs’ requests for percentage reduction
                                      constituted hardship, infeasibility, or similar circumstances, we question the
                                      targets selected by the 16 LGIs claiming “in good faith” exemptions.

Recommendation No. 1

                                      Require LGIs not computing base percentages to select 25 percent for all
                                      AREERA activities or to correctly determine their base percentages.

                                      CSREES Response. CSREES concurs. CSREES will require all 1862
                                      LGIs to review their current target percentages for multi-State extension

19
     This claim came from Purdue’s form CSREES-BASE (a form issued by CSREES for LGIs to document their base percentage calculation).
USDA/OIG-A/13001-3-Te                                                                                                                   Page 7
                   activities and integrated activities and, if applicable, reset their target
                   percentages for FY 2006 and thereafter. If an institution declines to provide
                   the additional information within a specified number of days, CSREES will
                   notify the institution that a 25 percent target must be set. CSREES will
                   approve target percentages by September 30, 2005.

                   OIG Position. We accept the management decision. For final action,
                   complete actions outlined in the corrective action plan (exhibit B). Also,
                   provideg the Office of the Chief Financial Officer, Planning and
                   Accountability Division (OCFO/PAD) a copy of CSREES’ revised
                   Administrative Guidance for Multistate Extension Activities and Integrated
                   Research and Extension Activities (due May 31, 2005). Further, provide a
                   schedule of 1862 LGIs that compares their original target percentages for
                   multi-State extension activities and integrated activities to their revised target
                   percentages.

Recommendation No. 2

                   Establish and implement controls/procedures designed to ensure that requests
                   for reductions in target percentages are granted only in verified cases of
                   hardship, infeasibility, or other similar circumstances.

                   CSREES Response. CSREES concurs. CSREES will establish a policy
                   requiring institutions requesting a waiver to do so in a letter addressed to the
                   CSREES Administrator. This letter will be submitted to the Policy,
                   Oversight, and Funds Management Branch for processing. After performing
                   an administrative review, Funds Management will send the waiver request to
                   the Planning and Accountability staff who, in conjunction with the
                   appropriate national program leader (NPL), will either recommend approving
                   or disapproving the waiver request. Funds Management will then prepare a
                   letter from the CSREES Administrator to the institution either approving or
                   disapproving the waiver request, and if necessary, requesting additional
                   information in order to process the waiver request. The waiver request must
                   be accompanied by supporting documentation and a reasonable explanation
                   of why the target level could not be met. Acceptable cases of hardship or
                   infeasibility would include State budget cuts, natural disasters affecting the
                   institution, and other similar circumstances. The criteria and the procedures
                   for requesting/processing a waiver will be included in the revised
                   Administrative Guidance by September 30, 2004, for FY 2000 through
                   FY 2005 requests, and by June 30, 2005, for FY 2006 and thereafter requests.

                   OIG Position. We accept the management decision. For final action,
                   provide OCFO/PAD a copy of CSREES’ revised Administrative Guidance
                   that sets forth its controls/procedures of processing institutions requests for
                   reductions in target percentages. Please highlight the pertinent changes.

USDA/OIG-A/13001-3-Te                                                                         Page 8
Recommendation No. 3

                   Revise guidance provided in CSREES’ frequently asked questions that
                   requires activities conducted by individuals on split appointments to be
                   integrated so that it conforms to guidance published in CSREES regulations.

                   CSREES Response. CSREES concurs. The work conducted by an
                   individual on a split appointment may not necessarily be “integrated” for a
                   particular problem area. However, it may be counted as integrated if the
                   institution is conducting work by a corresponding, complementary research
                   or extension component (e.g., salary of another individual) in the same
                   problem area. This complementary component may be supported with either
                   Federal or non-Federal formula funds. Frequently asked questions related to
                   this issue will be included in the Administrative Guidance and will be
                   updated as the Administrative Guidance is revised by May 31, 2005.

                   OIG Position. We accept the management decision. For final action,
                   provide the OCFO/PAD a copy of CSREES’ revised Administrative
                   Guidance, and highlight the language clarifying split appointments.




USDA/OIG-A/13001-3-Te                                                                  Page 9
Section 2. CSREES Controls Over Compliance With AREERA Requirements

                   As the agency responsible for administering AREERA, CSREES requires
                   institutions that receive Federal formula funds to submit a variety of
                   documents. Three of the most critical documents are POWs, expenditure
                   summaries, and financial status reports. In some cases, CSREES released
                   Federal funds to LGIs that had not submitted one or more of the required
                   documents. In other instances, CSREES released funding before it approved
                   an LGI’s document. And, CSREES approved documents that fell short of
                   AREERA requirements.

                   Specifically, CSREES approved POWs that did not comply with AREERA
                   standards. In addition, CSREES released formula funds to many LGIs that
                   reported not meeting the spending levels intended by Congress and to other
                   LGIs that reported not meeting the matching fund requirements. These
                   conditions developed because CSREES’ management controls were
                   inadequate to ensure LGIs fully complied with AREERA. As a result,
                   CSREES has no assurance that institutions expended Federal funds
                   appropriately, and we are recommending that the agency recover all
                   underexpenditures and unsupported costs.




Finding 2          Formula Funds Released Without POWs Meeting AREERA
                   Requirements for Approval

                   CSREES approved 17 POWs and conditionally approved 13 other POWs that
                   did not contain key POW elements required by AREERA for approval. Also,
                   CSREES released Federal formula funds to 10 LGIs before they approved the
                   POWs. These conditions developed because CSREES lacked effective
                   administrative controls over the process for reviewing and approving POWs.
                   As a result, CSREES disbursed $40 million to institutions before their POWs
                   complied with AREERA requirements causing the Government to incur
                   additional interest costs of about $482,400. Further, we concluded CSREES
                   could not ensure the LGIs appropriately planned to spend Federal funds on
                   approved research projects and extension programs.

                   CSREES required each institution to submit a 5-year POW. Review teams
                   were to assess whether the POWs met AREERA and CSREES standards. The
                   teams consisted of reviewers, facilitators, and/or NPLs who reviewed the
                   POWs at the national level. To assist them, CSREES created a checklist and
                   criteria for the NPL/facilitators/reviewers to use when evaluating the POWs.
                   Led by these guidelines, the review teams summarized the elements of the
                   POWs on the review team summary document, which commented on POWs’
USDA/OIG-A/13001-3-Te                                                                  Page 10
                                       strengths and weaknesses. The teams turned their recommendations over to
                                       what was then CSREES’ Partnership unit (now known as the Planning and
                                       Accountability staff). The unit/staff then submitted an approval letter for the
                                       Administrator’s signature. The review teams were responsible for tracking all
                                       POWs to ensure that any required revisions were timely resubmitted.

                                       To evaluate the adequacy of CSREES’ review and approval of institutions’
                                       POWs, we reviewed 30 of 75 POWs prepared by the 51 LGIs. We also
                                       reviewed all 93 letters the Administrator sent to LGIs approving their POWs.
                                       We reviewed the approval letters to identify POWs that CSREES
                                       conditionally approved and LGIs receiving Federal funds before CSREES
                                       approved the POWs. Our review found that CSREES had (a) improperly
                                       approved 17 POWs, (b) conditionally approved 13 POWs that should have
                                       been returned for revision, and (c) released formula funds to 10 LGIs before
                                       approving the POWs.

                                       a.    Approved POWs Not Meeting AREERA Requirements

                                             Lacking effective oversight of its review teams and clear pass/fail
                                             guidelines, CSREES approved POWs that did not meet the standards set
                                             by AREERA. AREERA and CSREES required (1) descriptions of
                                             research and extension activities, (2) descriptions of the merit/peer
                                             review process to be implemented by October 1, 1999, and (3)
                                             descriptions of the stakeholders’ input process to be implemented by
                                             October 1, 1999.20/21 CSREES, however, did not issue regulations
                                             showing how LGIs should perform merit reviews and it issued
                                             regulations implementing the stakeholder input process 6 months after
                                             the POWs were to be submitted.

                                             The guidance CSREES did issue was not adequate to ensure reviewers
                                             fully identified deficiencies in the POWs or, if identified, took
                                             appropriate corrective measures. AREERA called for descriptions of the
                                             research and extension programs, the merit/peer review process, and the
                                             stakeholders’ input process. However, the wording in the checklist
                                             CSREES gave to its review teams to help them evaluate POWs implied
                                             that reviewers needed to note whether required elements were present.
                                             Thus, reviewers accepted incomplete information such as a catalogue of
                                             programs, or statements that the review process had taken place, as
                                             fulfilling AREERA requirements although the law required descriptions
                                             of those elements.

                                             OIG assessed 17 POWs to determine if LGIs had met AREERA’s
                                             requirements and compared our assessments with the review team
                                             summary for those POWs. We identified weaknesses with all 17 POWs,
20
     Public Law 105-185, sections 102 (c), 103(d),(e), 104(a) and 201(a)(b)
21
     Guidelines for State POWs for the Agricultural Research and Extension Formula Funds
USDA/OIG-A/13001-3-Te                                                                                         Page 11
                                         and 10 of the POWs did not fulfill AREERA requirements in multiple
                                         elements. We determined that five were lacking adequate descriptions in
                                         three elements, and five were lacking adequate descriptions in two
                                         elements. Further, we noted that CSREES’ review teams identified
                                         problems similar to ours for 13 of the 17 POWs. Therefore, based on our
                                         review and our analysis of CSREES’ review teams’ summary
                                         documents, we concluded that none of the 17 POWs fully met AREERA
                                         requirements and should not have been approved. (See exhibit E.)

                                         CSREES did not have an adequate mechanism to disapprove POWs not
                                         meeting AREERA requirements. Our review of CSREES guidance
                                         given the review teams (CSREES Review of POW22 and USDA-
                                         CSREES Review of POW Checklist for Required Components)
                                         indicated these documents provided no pass/fail instructions. Further, an
                                         E-mail sent to the review staff on August 19, 1999, implied there was no
                                         pass/fail policy by stating: “If need be, * * * approval can be made
                                         conditional upon the receipt of additional information, clarification,
                                         narrative, certification, etc.” This guidance was in conflict with
                                         AREERA which required approval of POWs before release of Federal
                                         funds and also contrary to CSREES’ regulations requiring return of all
                                         incomplete POWs. As a result, POWs needing what CSREES called
                                         “Suggested Improvements” generally were approved while those
                                         needing what it called “Required Improvements” were conditionally
                                         approved.23 We maintain that as all of the elements were required by
                                         AREERA in order for LGIs to receive their funds, the deficient POWs
                                         should have been returned to the LGIs for correction and formula funds
                                         should have been withheld pending revision.

                                         Since CSREES did not ensure the LGIs’ POWs met AREERA standards,
                                         we concluded CSREES could not be sure the LGIs appropriately planned
                                         to spend Federal funds on approved research projects and extension
                                         programs. Further, because the LGIs should not have received funding
                                         until their POWs met AREERA standards, we calculated the added
                                         interest cost to the Government by releasing funds early. We assumed
                                         that an LGI (notified of deficiencies) would have revised its POWs
                                         within a 3-month period if formula funds were withheld.

                                         To calculate the excess interest cost to the Government of the
                                         prematurely released funds, we multiplied one-fourth24 of the formula
                                         fund distributions for which the LGIs were eligible in FY 2000
                                         ($17,304,251) by the lowest Federal funds rate25 for the 3-month period
                                         of October 1999 through December 1999 (5.2 percent). We

22
   Dated April 22, 1999
23
   Both suggested and required improvements were required by AREERA. See following section, “Conditionally Approved POWs.”
24
   We used one-fourth of the funds because one-fourth of the total obligation is to be distributed each quarter.
25
   The rate at which the U.S. Government borrows money.
USDA/OIG-A/13001-3-Te                                                                                                        Page 12
                                           conservatively estimate, then, that if CSREES had not approved the
                                           POWs, the Government would have avoided about $225,000 in
                                           additional interest costs.

                                     b.    Conditionally Approved POWs

                                           AREERA, the Smith-Lever Act, and NARETPA, require all LGIs
                                           receiving formula funds to have their POWs approved by the Secretary
                                           before receiving their formula funds.26 CSREES published guidelines in
                                           the Federal Register stating that POWs would either be approved without
                                           change, or returned to the LGI with clear and detailed recommendations
                                           for modification.27

                                           CSREES’ previous Administrator, however, signed letters to LGIs
                                           “conditionally approving” 13 POWs, which overrode the established
                                           policy. CSREES assumed that members of the review team would
                                           follow up on their recommendations during assessments of LGIs’
                                           subsequent annual reports;28 however, a written policy requiring such
                                           followup was not established. As a result, the LGIs did not appropriately
                                           revise 12 of the 13 conditionally approved POWs.

                                           Out of 13 conditionally approved POWs, CSREES officials provided
                                           OIG with 3 copies of POWs they indicated had been revised. OIG
                                           reviewed all three POWs and determined that two still had not
                                           adequately answered the deficiencies that CSREES’ review team initially
                                           noted. However, the annual report review process allowed the LGIs to
                                           receive formula funds without having their POWs meet AREERA
                                           standards. (See exhibit F.)

                                           Given that CSREES had no express authority to extend conditional
                                           approval, and that the LGIs did not appropriately revise their POWs, we
                                           found that formula funds were improperly released. We determined the
                                           excess interest cost to the Government by multiplying one-fourth of the
                                           FY 2000 formula fund distribution to LGIs who were conditionally
                                           approved by the least Federal funds interest rate in the first quarter of
                                           FY 2000, October through December 1999. (As previously discussed, we
                                           assumed that the LGIs would have submitted revised POWs within 3
                                           months had their funding been withheld.) Since the LGIs received
                                           formula funds totaling almost $16 million, the Government incurred
                                           additional interest costs of about $206,900.




26
   Public Law 105-185 § 7(d), Smith-Lever Act §4(a), and NARETPA §1444 (2)(d)
27
   Federal Register, Volume 64, number 126, page 35919 §II.C.1, dated July 1, 1999
28
   The annual reports essentially detailed how a given year of the 5-year POW had been implemented.
USDA/OIG-A/13001-3-Te                                                                                       Page 13
                                   c.     Formula Funds Released Before POWs Approved

                                          CSREES released FY 2000 formula funds to 10 LGIs before their POWs
                                          were approved because distribution was not tied to approval. As a result,
                                          formula funds totaling $7 million were released early causing the
                                          Government to incur about $50,500 in added interest.

                                          AREERA and other laws require that the Secretary approve LGIs’ POWs
                                          before releasing research and extension formula funds.29 We compared
                                          the dates on 9230 approval letters generated by CSREES’ Partnership
                                          Unit staff to the release dates of formula funds, provided by CSREES’
                                          Office of Extramural Programs’ Funds Management Branch, and found
                                          10 LGIs whose funds had been released before the POWs were
                                          approved.31 The number of days between the release of funds and the
                                          approval of POWs varied from 13 to 160 days. We calculated the
                                          $50,500 excess interest cost by multiplying the formula funds released
                                          early times the number of days the funds were released early times the
                                          average Federal funds rate for the periods.

                                          Funds Management Branch officials indicated that they were never
                                          notified whether or not POWs had been approved and formula funds
                                          were not withheld when a POW was not approved.32

                                          CSREES did not link the Funds Management Branch (responsible for
                                          releasing monies) to the Partnership Unit staff (responsible for approving
                                          POWs). As a consequence, CSREES had no management control over
                                          the distribution of funds prior to POW approval, contrary to
                                          requirements of law. CSREES officials acknowledged that there were
                                          “no procedures for withholding of funds for failing to meet AREERA
                                          requirements.”

Recommendation No. 4

                                   Establish and document controls (such as pass/fail guidelines, second party
                                   reviews, etc.) to ensure that LGIs’ POWs meet AREERA standards and
                                   CSREES requirements before granting approval.

                                   CSREES Response. CSREES concurs. CSREES will establish and
                                   document procedures that ensure LGIs’ POWs meet AREERA and CSREES
                                   requirements before granting approval. The target date is September 30,
                                   2004.

29
   Public Law 105-185 §§202 and 225(b), Smith-Lever Act§4(a), and NARETPA §1444 2(d)(1)
30
    Of the 93 approved letters, one was not dated.
31
   Some LGIs received more than one approval letter because they submitted separate POWs for research and extension activities.
32
   Funds Management Branch officials stated that they only withheld funds when LGIs had not submitted either their Financial Status Reports, Form
SF-269 or Certificates of Offset and Entitlement, Form CSREES-2103.
USDA/OIG-A/13001-3-Te                                                                                                                 Page 14
                   OIG Position. We accept the management decision. For final action,
                   provide OCFO/PAD a copy of CSREES’ new procedures/controls for
                   ensuring POWs are not approved until they meet AREERA and CSREES
                   requirements. Please highlight the pertinent changes, such as pass/fail
                   guidelines.

Recommendation No. 5

                   Revise the POW checklist to include appropriate checks for descriptions of
                   (1) research and extension activities, (2) merit/peer review processes, and
                   (3) stakeholder input processes required by CSREES and AREERA.

                   CSREES Response. CSREES concurs. For the review of the FY 2005
                   through FY 2006 update to the 5-year POW, CSREES will revise the
                   reviewer checklist to provide clearer guidance to reviewers to ensure all
                   POW compliance and reporting requirements are met prior to approval (i.e.,
                   pass/fail guidelines). Training for the FY 2005 through FY 2006 update will
                   be provided to the POW reviewers. The target date for both actions is
                   July 31, 2004.

                   The POW and related reporting requirements are being made accessible
                   online beginning in FY 2006 for the upcoming 5-year POW (FY 2007
                   through FY 2011); the online features and checklist are in the development
                   phase. The automated formats will contain required fields that will, to a large
                   degree, eliminate insufficient POWs. The online POW product will be
                   reviewed for approval by two NPLs, as is the current process. Institutions
                   that submit insufficient information on the POW will be notified via E-mail,
                   as is the current procedure. The target date for online application is July 31,
                   2006.

                   OIG Position. We accept the management decision. For final action,
                   provide the OCFO/PAD a copy of CSREES’ revised POW checklist. Please
                   highlight the pertinent changes.

Recommendation No. 6

                   Establish and document controls designed to ensure formula funds are not
                   distributed to LGIs until their POWs fully meet AREERA and CSREES
                   requirements and are approved by CSREES representatives.

                   CSREES Response. CSREES concurs. The Funds Management section
                   of the Policy, Oversight, and Funds Management Branch currently maintains
                   a checklist of required documentation for each formula fund program. This
                   checklist includes the Financial Status Report, Form SF-269; appropriate
                   budget forms; Programs of Research; Certifications of Offset, and the
                   Certification of Lobbying Forms. Funds Management will add POW
USDA/OIG-A/13001-3-Te                                                                     Page 15
                   reporting requirements to the checklist as it becomes feasible. However,
                   institutions must have an approved FY 2005 through FY 2006 POW update
                   in order to receive their first quarter FY 2005 formula funds allocation. In
                   addition, formula funds will be placed “on hold” for failure to submit the
                   appropriate expenditure reports for multi-State extension activities and
                   integrated activities (i.e., CSREES-REPT) with the annual report which is
                   due on March 1. As Funds Management progresses with the review and
                   followup with the AREERA sections 105 and 204 requirements for FY 2000
                   through FY 2003, funds will be recovered through reducing funding
                   authorizations as appropriate. The target date for establishing, documenting,
                   and implementing controls is October 1, 2004.

                   OIG Position. We accept the management decision. For final action,
                   provide OCFO/PAD a copy of CSREES’ new procedures/controls for
                   ensuring formula funds are not distributed to LGIs until their POWs fully
                   meet AREERA and CSREES requirements. Please highlight the pertinent
                   changes in the checklist, as well as instructions for placing formula funds “on
                   hold,” and recovering funds through reduced funding authorizations.

Recommendation No. 7

                   Withhold further funding from the LGIs listed in exhibits E and F until they
                   have submitted revised POWs that meet AREERA and CSREES
                   requirements.

                   CSREES Response. CSREES concurs. CSREES will withhold formula
                   funds in the first quarter of FY 2005 for those institutions that fail to have an
                   approved FY 2006 through FY 2007 POW update. Reviewers will be
                   instructed to ensure that the deficiencies noted in exhibits E and F are
                   resolved during the review and approval of the FY 2005 through FY 2006
                   POW updates. The target date is September 30, 2004.

                   OIG Position. We accept the management decision. For final action,
                   provide OCFO/PAD a document summarizing the results of CSREES’
                   review of FY 2006 through FY 2007 POW updates. The document should
                   identify the LGIs having funds withheld because POWs did not meet
                   standards, including those listed in exhibits E and F.




Finding 3          CSREES Did Not Ensure That LGIs Reported Spending Formula
                   Funds at Required Levels

                   CSREES did not effectively monitor the 51 1862 LGIs’ reported
                   expenditures of Federal formula funds to ensure the institutions met their

USDA/OIG-A/13001-3-Te                                                                       Page 16
                                  required target percentages. Some institutions reported spending Federal
                                  formula funds in lesser amounts than required (27 LGIs in FY 2000 and 23 in
                                  FY 2001). Also, one institution reported spending more formula funds than
                                  allocated by CSREES. The reported underexpenditures ($14.4 million) and
                                  overexpenditures ($738,158) went unquestioned because CSREES had not
                                  established effective controls to monitor LGI compliance with target
                                  expenditure percentages, had not informed LGIs of noncompliance, and had
                                  not enforced penalties for noncompliance. Therefore, congressionally
                                  mandated objectives regarding expenditures of Federal funds were not fully
                                  achieved.

                                  AREERA requires that LGIs spend, in FY 2000 and thereafter, 25 percent of
                                  their formula funds for multi-State extension and integrated activities or
                                  twice the percentage spent on those (AREERA) activities in FY 1997
                                  (whichever is less).33 The law also requires the Secretary to establish
                                  protocols to evaluate the success of multi-State extension activities, and joint
                                  research and extension activities.34 Both the Hatch and Smith-Lever Acts
                                  require that if any portion of allotted funds is misapplied, it must be replaced
                                  by the State concerned and that no further monies should be paid to the State
                                  until the situation is rectified.35

                                  CSREES required LGIs to submit a supplement summarizing their
                                  expenditures for AREERA activities (form CSREES-REPT) with their
                                  annual report. CSREES’ Planning and Accountability staff distributed the
                                  annual reports to the NPLs, who were to make sure that the expenditure
                                  summaries (form CSREES-REPT) were present and the amounts reported
                                  met the LGIs’ required target percentages. Once they had reviewed the
                                  annual reports, the NPLs were to note their positive and negative
                                  observations on the review team summary document. If the NPLs
                                  recommended approval, CSREES would then send a letter to each LGI
                                  indicating that its annual report(s) had been received and approved.

                                  The NPLs, however, were not ensuring that LGIs had included form
                                  CSREES-REPT with their annual reports. Based on our review for the
                                  51 LGIs, we found that, in both FYs 2000 and 2001, about 25 percent of the
                                  152 required forms were not submitted. Specifically, we found
                                  34 form CSREES-REPTs to be missing in FY 2001. We reviewed CSREES’
                                  letters approving the LGIs’ annual reports for 23 of the 34 missing CSREES-
                                  REPTs and found that none of the approval letters noted the LGIs had not
                                  submitted the required form.

                                  Also, the NPLs did not effectively review form CSREES-REPT to see if
                                  LGIs had met their target percentage expenditures. If NPLs had compared

33
   Public Law 105-185 §§105 and 204
34
   Public Law 105-185 §202
35
   Hatch Act §5 and Smith-Lever §5
USDA/OIG-A/13001-3-Te                                                                                     Page 17
                   LGIs’ summaries of expenditures in form CSREES-REPT and/or annual
                   report against their required expenditures, they would have discovered that
                   27 LGIs reported spending less than required on AREERA activities in
                   FY 2000, and 23 LGIs reported spending less than required in FY 2001. In
                   fact, there were adverse variances of more than $8.4 million and $6 million in
                   FYs 2000 and 2001, respectively. (See exhibit G.) University of California,
                   for example, reported a deficit in integrated extension program expenditures
                   of $230,231 in FY 2000 and $170,348 in FY 2001. The NPLs, however, did
                   not note the deficiency on the annual report review checklist, nor did
                   CSREES bring the problem to the university’s attention in its letter approving
                   the LGI’s annual report.

                   Although the LGIs were required to repay the underexpended funds to
                   CSREES before they received further formula funds, CSREES did not inform
                   the institutions of their noncompliance or enforce penalties. Because it did
                   not ensure that NPLs adequately reviewed and analyzed LGIs’ expenditure
                   data, CSREES continued to inappropriately approve annual reports and LGIs
                   continued to receive formula funds to which they were not entitled.

                   Further, we noted that one institution reported spending more Federal
                   formula funds for integrated research activities than CSREES allocated. The
                   University of Idaho reported in its annual report that it had expended
                   $2,280,792 and $2,499,797 for integrated research activities in FYs 2000 and
                   2001, respectively, while CSREES allocated Hatch and Hatch multi-State
                   formula funds of only $2,023,484 and $2,018,947 for the respective years - a
                   difference of $738,158 in all. The university’s FY 2000 annual report
                   indicated that expenditures for integrated research and extension activities
                   included both State and Federal formula funds. Such information should
                   have alerted CSREES that the required percentage of Federal formula funds
                   might not have been expended on AREERA activities.

                   We identified a number of weaknesses in CSREES’ process for reviewing
                   LGIs’ annual reports, including form CSREES-REPT. We concluded that
                   these weaknesses contributed to the preceding conditions.

                   a.   FY 2002 Annual Report – Reviewer’s Package

                        This document was intended to guide NPLs in reviewing annual reports
                        and related documents. However, it provided NPLs with no directions
                        for ensuring LGIs were spending formula funds on AREERA activities
                        at the required target percentages, or for recovering improperly expended
                        funds. It did not specify what records NPLs should use to determine
                        whether expenditures occurred at the required target percentages.
                        Further, the document did not provide for a second party review process
                        to ensure NPLs effectively performed their reviews.

USDA/OIG-A/13001-3-Te                                                                    Page 18
                   b.   Annual Report Review Checklist

                        Designed to guide NPLs in their review of the annual reports, the
                        checklist asked NPLs to check either “Yes” or “No” to a series of
                        questions to indicate whether the report adequately addressed a key
                        issue. However, the checklist did not require NPLs to explain questions
                        answered with a “No” in the review team summary. Also, multipart
                        questions listed under the heading “multi-State extension and integrated
                        research and extension sections” offered only one “Yes/No” answer
                        space. For example, one of the questions read, “Multi-State Extension
                        Activities Form(s) CSREES-REPT and/or CSREES-Waiver (2/00). And
                        are they on target with their multi-State plan? Submission?” Such an
                        organization allows the NPLs to check “Yes” for the entire question
                        instead of accounting for each of its parts individually. Further, the
                        question, “And are they on target with their multi-State plan?” is unclear.
                        While the question’s intent apparently was to have NPLs determine if
                        LGIs spent formula funds on AREERA activities at the required target
                        percentages, some NPLs and LGIs interpreted the phrase “on target” as
                        working toward the goal instead of actually meeting it.

                   c.   Form CSREES-REPT

                        The form was intended for LGIs to report Federal formula funds
                        expended on AREERA activities; however, language on the form does
                        not make this purpose clear. Also, the form does not require the
                        individual signing the form to certify to the correctness of the data
                        provided, or that the amounts reported are Federal formula funds used
                        for AREERA purposes.

                   d.   Review Team Summary

                        This document (a template with section headings for organizing
                        comments) was designed to summarize NPLs’ positive and negative
                        observations during their reviews of the annual reports. However, the
                        document did not require NPLs to comment on LGIs’ accomplishments
                        or setbacks in spending the required percentage of formula funds on
                        AREERA activities.

Recommendation No. 8

                   Revise the Annual Report - Reviewer’s Package to include (a) guidance for
                   determining if expenditures of formula funds on AREERA activities meet
                   target percentages (including records to review), (b) guidance for recovering
                   misapplied funds, and (c) a process for second party review.



USDA/OIG-A/13001-3-Te                                                                      Page 19
                   CSREES Response. CSREES concurs. CSREES Funds Management is
                   in the process of developing procedures for the review of the annual reports
                   (i.e., form CSREES-REPT) for multi-State extension activities and integrated
                   activities. As part of these procedures, there will be a checklist for the Funds
                   Management staff and procedures for processing waiver requests and
                   recovering funds, as well as a requirement that there be a second-party
                   review. Procedures also will be established to communicate this information
                   to the Planning and Accountability staff as well as to the appropriate NPLs.

                   The annual report review process will continue as is performed currently with
                   a review by two NPLs. The review team summary report form for FY 2003
                   provides areas for NPL comments on multi-State extension activities and
                   integrated research and extension activities. The Funds Management staff
                   review will complement the NPL’s review. The target date for development
                   and implementation of these review procedures is December 31, 2004.

                   OIG Position. We accept the management decision. For final action,
                   provide OCFO/PAD a copy of CSREES’ revised procedures for the review of
                   the annual reports. Highlight the portions of the document providing specific
                   directions regarding meeting target percentages, recovering misapplied funds,
                   and implementing second party reviews.

Recommendation No. 9

                   Reformat the annual report review checklist to permit only one question for
                   every “Yes/No” answer space. Also, rewrite the questions to clarify the
                   meaning of “on target.”

                   CSREES Response. CSREES concurs. The FY 2003 annual report
                   review checklist has one question attached to every “Yes/No” space. The
                   annual report checklist for FY 2004 will be reviewed and revised as
                   necessary. The target date is December 31, 2004.

                   OIG Position. We accept the management decision. For final action,
                   provide OCFO/PAD a copy of CSREES’ revised annual report review
                   checklist showing there is only one question for every “Yes/No” answer
                   space. Also, highlight the portions of the document providing specific
                   directions regarding reviewers checking to ensure LGIs are reporting
                   spending formula funds at the required target percentages.

Recommendation No. 10

                   Specify on form CSREES-REPT that only Federal formula funds expended
                   on AREERA activities are to be reported. Also, require the signatory to
                   certify the correctness of the data provided.

USDA/OIG-A/13001-3-Te                                                                      Page 20
                                      CSREES Response. CSREES concurs. CSREES-REPT will be revised
                                      to state that only Federal formula funds should be reported on the form. This
                                      will be clarified in the revised Administrative Guidance. The revised form
                                      also will require a signature to certify to the correctness of the data provided.
                                      The target date is December 31, 2004.

                                      OIG Position. We accept the management decision. For final action,
                                      provide OCFO/PAD a copy of CSREES’ revised CSREES-REPT. Please
                                      highlight changes to CSREES-REPT showing that only Federal formula
                                      funds are to be reported and the statement the signatory signs certifying the
                                      corrections of the data provided. Also, provide a copy of the revised
                                      Administrative Guidance with pertinent changes highlighted.

Recommendation No. 11

                                      Revise the Review Team Summary to provide for comments regarding LGIs’
                                      accomplishments, or lack thereof, in spending the required percentage of
                                      formula funds on AREERA activities.

                                      CSREES Response. CSREES concurs. The review team summary for
                                      FY 2003 contains areas for comment by the NPLs on multi-State extension
                                      and integrated research and extension activities. A separate checklist (i.e., for
                                      FY 2004 reporting requirements) is being developed for the Funds
                                      Management staff to document whether or not each institution has met their
                                      AREERA sections 105 and 204 requirements. The Funds Management
                                      checklist will clearly identify if the institution has met their multi-State
                                      extension and integrated targets. A copy of this checklist will be forwarded
                                      to the Planning and Accountability Staff that, in turn, will provide it to the
                                      appropriate NPL. The target date for development and implementation of a
                                      Funds Management checklist for FY 2004 annual reports is December 31,
                                      2004.36

                                      OIG Position. We accept the management decision. For final action,
                                      provide OCFO/PAD a copy of CSREES’ Funds Management checklist, and
                                      highlight the portions designed to disclose whether the institution has met its
                                      multi-State extension and integrated targets.

Recommendation No. 12

                                      Review formula fund expenditures for LGIs listed in exhibit G and recover
                                      funds not expended in accordance with required percentage amounts.

                                      CSREES Response. CSREES concurs. CSREES will aggressively
                                      review annual reports for multi-State extension activities and integrated

36
     CSREES agreed on July 15, 2004, to change the May 31, 2005 target date provided in their written response to the draft report to December 31, 2004.
USDA/OIG-A/13001-3-Te                                                                                                                         Page 21
                   activities and, if applicable, CSREES will provide institutions with an
                   opportunity to submit revised CSREES-REPT’s and/or waiver requests. If
                   institutions have not met these requirements (i.e., FY 2000 through FY 2003)
                   by June 30, 2005, funding authorizations will be reduced accordingly.
                   CSREES will not withhold further distributions until recoveries are made; but
                   instead, CSREES will reduce the funding authorizations as soon as it is
                   verified that the institutions have not met the requirements or failed to secure
                   approved waivers. The target date for the review and recovery of
                   expenditures listed in exhibit G is September 30, 2005.

                   OIG Position. We concur with the proposed actions. To accept a
                   management decision, please provide OIG the results of CSREES’ review of
                   formula fund expenditures for LGIs listed in exhibit G, including Letters of
                   Determination informing the LGIs of the amount of reductions in funding
                   authorization. For amounts reduced or waived by CSREES, provide
                   support/justification for such actions.

Recommendation No. 13

                   For the LGIs identified in exhibit G that have not repaid the amount of
                   Federal formula funds CSREES confirmed to have not been expended in
                   accordance with required percentage amounts, withhold further distributions
                   until recoveries are made.

                   CSREES Response. CSREES concurs. CSREES will aggressively
                   review annual reports for multi-State extension activities and integrated
                   activities and, if applicable, CSREES will provide institutions with an
                   opportunity to submit revised CSREES-REPT’s and/or waiver requests. If
                   institutions have not met these requirements (i.e., FY 2000 through FY 2003)
                   by June 30, 2005, funding authorizations will be reduced accordingly.
                   CSREES will not withhold further distributions until recoveries are made; but
                   instead, CSREES will reduce the funding authorizations as soon as it is
                   verified that the institutions have not met the requirements or failed to secure
                   approved waivers. The target date for withholding further distributions until
                   recoveries (i.e., for confirmed amounts on exhibit G) are made is October 1,
                   2005.

                   OIG Position. We accept the management decision. For final action,
                   provide OCFO/PAD the names of LGIs identified in exhibit G that CSREES
                   confirmed did not meet AREERA formula fund expenditure requirements or
                   failed to secure waivers, and identify the amount of reduced funding
                   authorizations imposed.




USDA/OIG-A/13001-3-Te                                                                      Page 22
Recommendation No. 14

                                  Determine whether the University of Idaho underexpended Federal formula
                                  funds on AREERA activities and collect any misapplied formula funds.

                                  CSREES Response. CSREES concurs. As part of it overall review of the
                                  AREERA sections 105 and 204 reporting requirements, CSREES will review
                                  the reports submitted by the University of Idaho and, if necessary, CSREES
                                  will require the university to recompute its FY 1997 baselines and target
                                  percentages in addition to resubmitting CSREES-REPT for FY 2000 through
                                  FY 2003. The target date is June 30, 2005.

                                  OIG Position. We accept the management decision. For final action,
                                  provide the OCFO/PAD the results of CSREES’ review of the University of
                                  Idaho’s expenditure of Federal formula funds and the amount of misapplied
                                  funds recovered, if any.



Finding 4                         1890 LGIs Report Not Matching Formula Funds

                                  Over 50 percent of the 1890 LGIs reported not matching Federal extension
                                  and research funds in FYs 2000 and 2001; however, CSREES personnel did
                                  not identify the deficiencies when reviewing the Financial Status Reports,
                                  Form SF-269. This condition developed because CSREES’ written
                                  procedures for reviewing matching compliance were outdated and
                                  inadequate, and its operating practices were ineffective. As a result,
                                  CSREES did not recover and redistribute more than $4.6 million in
                                  unmatched FY 2000 extension and research formula funds and more than
                                  $11.4 million in FY 2001 to complying institutions as required by law.

                                  AREERA mandated that States match a percentage of the funds their 1890
                                  LGIs receive from the Government for research and extension activities.37
                                  These funds had to come from non-Federal sources and the matching
                                  requirement increased from 30 percent in FY 2000 to 45 percent in FY 2001,
                                  and finally to 50 percent in FY 2002.38 Formula funds that were not matched
                                  from non-Federal sources were to be recovered and redistributed to those
                                  LGIs meeting their matches.39

                                  In order to determine that an institution had available funds necessary to meet
                                  the matching requirements, CSREES sent a Certificate of Offset and
                                  Entitlement, Form CSREES-2103, to each LGI every August before the new
                                  FY. CSREES requested that LGIs indicate the amount of State matching
37
   Public Law 105-185 §226
38
   The Farm Security and Rural Investment Act of 2002 (2002 Farm Bill) increased the matching requirement for 1890 LGIs from 50 percent to 100
percent by FY 2007. However, AREERA’s cap was 50 percent.
39
   Public Law 105-185 §§226(a) and NARETPA § 1449(f)
USDA/OIG-A/13001-3-Te                                                                                                              Page 23
                                       funds available. By the last month of the FY (September), the institutions
                                       were to return the certificate indicating whether there were sufficient funds
                                       available as well as the source of those funds. If an institution did not return
                                       the certificate by the end of September, the LGI’s quarterly formula fund
                                       distributions were to be withheld until it complied.

                                       In May of the following FY, LGIs were to confirm by way of another
                                       certificate, form CSREES-2103, that they had sufficient funds to match the
                                       expected formula fund distribution. If a LGI did not confirm by July,
                                       CSREES was to withhold that institution’s last quarterly (July) distribution
                                       until it indicated sufficient matching funds were available.

                                       Meanwhile, following the end of each FY, in December or March of the next
                                       FY (depending on the type of formula funds distributed), each LGI submitted
                                       a form SF-269, to CSREES detailing, among other things, the level of
                                       matching fund expenditures.

                                       CSREES’ written procedure40 required CSREES staff to review forms
                                       SF-269; however, the procedures were outdated and did not clearly delineate
                                       the review process for ensuring 1890 LGIs met matching requirements or the
                                       course of action when LGIs did not match Federal funds.

                                       Our review of the procedure indicated it was revised in May 1998, prior to
                                       the passage of AREERA in June 1998. Therefore, it did not contain any
                                       specific directions for reviewing 1890 LGIs’ compliance with matching
                                       requirements. Further, it indicated that no matching was required for 1890
                                       LGIs.41 Although, the procedure contained general instructions for reviewing
                                       matching requirements, they did not address the 1890 LGIs’ unique matching
                                       requirements.

                                       The instructions indicated the amount reported on line 10-I of form SF-269
                                       must meet the FY matching or offset requirement. It further stated that if the
                                       matching amount provided by the recipient was less than the matching
                                       requirement, the reviewing staff was to check with the institution before
                                       requesting a refund. This instruction implied that a refund was to be
                                       requested if matching was not met; however, section III of the procedure,
                                       titled “Refunds,” did not direct the staff to request refunds for deficient
                                       matching.

                                       In discussing the review process with the staff, we learned CSREES released
                                       Federal funding if the LGIs demonstrated that State matching funds were
                                       available without ensuring the matching funds had actually been expended.
                                       If LGIs did not submit the required forms (SF-269 and CSREES-2103), funds


40
     CSREES Formula Funds Review Procedures for SF 269 Long Form, revised 5/8/98
41
     A copy of the instructions obtained from CSREES staff had matching percentages annotated on the copy by pen and ink.
USDA/OIG-A/13001-3-Te                                                                                                       Page 24
                   were withheld; however, CSREES staff did not withhold funds if LGIs’ form
                   SF-269 showed an insufficient expenditure of matching funds.

                   For all 1890 LGIs (17), we compared their required expenditure match
                   against their reported State matching funds. We determined that in FY 2000,
                   nine LGIs reported spending insufficient State funds to match extension
                   and/or research distributions ($4.7 million). Fourteen LGIs reported spending
                   insufficient funds in FY 2001 to match extension and/or research
                   distributions ($11.4 million). For a summary of LGIs reporting not meeting
                   matching requirements, see exhibit H.

Recommendation No. 15

                   Establish and implement an effective procedure for reviewing LGIs’
                   Financial Status Reports, Form SF-269, to ensure unmatched Federal formula
                   funds have been identified, recovered, and redistributed to LGIs meeting their
                   matches.

                   CSREES Response. CSREES concurs. Members of the CSREES Funds
                   Management staff have been meeting on the Review/Grant Close-out, Form
                   SF-269, process and will be revising the internal staff guidance. In addition,
                   the final rule for the 1890 matching requirements will address the reporting
                   requirements for matching on the Financial Status Report, Form SF-269. The
                   formula funds section of “Doing Business with CSREES” on the agency’s
                   Web page also will be revised to emphasize the importance of reporting the
                   match on the SF-269 form. The target date for revising internal guidance on
                   the Review/Grant Close-out, Form SF-269, and process is December 31,
                   2004.

                   OIG Position. We accept the management decision. For final action,
                   provide OCFO/PAD a copy of CSREES’ revised guidance and procedures.
                   Please highlight all pertinent changes, including those made to the agency’s
                   Web page.

Recommendation No. 16

                   For the LGIs listed in exhibit H, determine whether Federal formula funds
                   were matched. If matching did not occur, require LGIs to return the
                   unmatched funds.

                   CSREES Response. CSREES concurs. CSREES is reviewing all the
                   Financial Status Reports, Form SF-269, for the agricultural research and
                   extension formula funds awarded to the 1890 LGIs, including Tuskegee
                   University and West Virginia State University (FY 2000 through FY 2003).
                   The Target date is September 30, 2004. CSREES will review the SF-269
                   forms of the institutions included in Schedule H. If applicable, CSREES will
USDA/OIG-A/13001-3-Te                                                                    Page 25
                   provide institutions the opportunity to submit a waiver request (i.e., FY 2000
                   and for amounts above 50 percent for FY 2003 and thereafter) or submit a
                   corrected SF-269 form. If institutions have not met their matching
                   requirements by March 31, 2005, funding authorizations (i.e., FY 2000
                   through FY 2002) will be reduced accordingly. The target date for the
                   review and recovery of expenditures listed in exhibit H is June 30, 2005.

                   OIG Position. We concur with the proposed actions. To accept a
                   management decision, please provide OIG the results of CSREES’ review of
                   matching compliance for LGIs listed in exhibit H, including Letters of
                   Determination informing the LGIs of the amount of reductions in funding
                   authorization. For amounts reduced or waived by CSREES, provide
                   support/justification for such actions.




USDA/OIG-A/13001-3-Te                                                                    Page 26
Section 3. Governor’s Report
Finding 5                         Governor’s Report No Longer Required By CSREES

                                  The Governor’s Report offers a detailed summary of a LGI’s expenditures
                                  and operations in extension work to the Governor of its State and the
                                  Secretary of Agriculture. In FY 1997, CSREES ceased to require the report
                                  from LGIs receiving extension formula funds.

                                  CSREES officials, relying upon the Paperwork Reduction Act,42 indicated
                                  that OMB had “nixed” the report because the financial reporting required
                                  under OMB Circular A-110 sufficiently met the law’s requirement and that
                                  additional reporting would be unnecessary and burdensome. While the
                                  circular does require a Financial Status Report, Form SF-269, from each LGI,
                                  that report asks only for total expenditures for the program, and the general
                                  funding sources (e.g., State, Federal, and program income).43

                                  The Smith-Lever Act and NARETPA oblige each LGI receiving extension
                                  formula funds to make “a full and detailed report of its operations in
                                  extension work,” which includes “a detailed statement of receipts and
                                  expenditures from all sources.”44 This report must be sent to the State’s
                                  Governor and the Secretary of Agriculture.

                                  We contacted OMB to determine if CSREES had sought its approval to
                                  discontinue the Governor’s Report. OMB officials told us CSREES had not
                                  contacted them about the report, but that generally, OMB does not override
                                  the requirement to collect data if a law required the collection of that data.

                                  Since form SF-269 does not require the detail of expenditures required by the
                                  Governor’s Report, we suggest that it cannot replace the required report.
                                  Without the report, CSREES loses a valuable tool to help it monitor and
                                  control LGIs’ extension expenditures.

Recommendation No. 17

                                  Require LGIs receiving formula funds for extension operations to resume
                                  submitting the Governor’s Report.

                                  CSREES Response. CSREES concurs. CSREES will work with the
                                  LGIs in providing this report when the online POW reporting system is
                                  developed for FY 2007 through FY 2011. The target date for developing a


42
   Title 5, Code of Federal Regulations 1320
43
   OMB Circular A-110, paragraph 52(a)(1)
44
   Smith L-Lever Act §5 and NARETPA §1445
USDA/OIG-A/13001-3-Te                                                                                   Page 27
                   report meeting the requirements of the Governors’ Report is December 31,
                   2005.

                   OIG Position. We accept the management decision. For final action,
                   provide OCFO/PAD a copy of the new report format and instructions
                   requiring its use.




USDA/OIG-A/13001-3-Te                                                              Page 28
General Comments
                                  During the course of our audit, we found LGIs that mistakenly believed
                                  CSREES had waived the requirement to spend Federal formula funds at the
                                  levels required by AREERA. These institutions had turned in a waiver
                                  request to CSREES along with their annual report in FYs 2000 and 2001.
                                  CSREES did not specifically reject or approve their waiver requests but it did
                                  approve the annual reports. LGIs erroneously assumed that, since the waiver
                                  requests were turned in along with the annual reports, approval of one
                                  counted as approval of the other.

                                  The law and CSREES regulations allowed LGIs to request a waiver to reduce
                                  the target percentages they had agreed to spend on AREERA activities in
                                  case of hardship, infeasibility or other similar circumstances.45 CSREES
                                  allowed reduction requests to be submitted annually, but required that the
                                  requests be submitted via form CSREES-WAIVER and that they be
                                  submitted prior to October 10 each FY (prewaiver) or submitted with the
                                  annual reports (postwaiver).

                                  CSREES often did not act on the waiver requests (neither approving nor
                                  denying) and did not consider its approval of the annual report as
                                  commensurate with approval of the waiver. Although nine LGIs requested
                                  waivers, none were acted on by CSREES. CSREES did not, however, inform
                                  the institutions that their waiver requests had not been approved. Without
                                  knowing that CSREES had not approved their waiver requests, they were
                                  liable to underspend their formula funds and to incur consequent penalties
                                  without being aware of their situation.

                                  Accordingly, we suggest that CSREES clarify the waiver approval process
                                  with LGIs to prevent accidental noncompliance and to maintain better control
                                  over formula fund expenditures.




45
   Public Law 105-185 §§105 and 204, and Administrative Guidance for Multi-State Extension Activities and Integrated Research and Extension
Activities (pages 12, 14, and 15)
USDA/OIG-A/13001-3-Te                                                                                                           Page 29
Scope and Methodology
                                        The audit, conducted from October 2002 through December 2003, reviewed
                                        the administrative and financial records relating to implementation of
                                        AREERA sections 105 and 204 for computation of FY 1997 base
                                        percentages, target selections and reported expenditures for FYs 2000 and
                                        2001 AREERA activities. We reviewed the administrative controls that
                                        CSREES implemented to manage AREERA activities. Specifically, we
                                        reviewed the controls related to CSREES’ oversight of 1862 LGIs’
                                        computations of base and target percentages, development of POWs, and
                                        expenditures of formula funds at target percentages required by AREERA.
                                        Also, during the survey phase, October 2001 through September 2002, we
                                        reviewed the administrative and financial controls over the implementation of
                                        the matching fund requirement at 1890 LGIs mandated by section 226 of
                                        AREERA.

                                        Distributions of Federal formula funds to the 5146 1862 LGIs totaled about
                                        $421 million in both FYs 2000 and 2001. The portion of Federal formula
                                        funds LGIs targeted to expend for AREERA activities totaled about $70.5
                                        million (17 percent) in FY 2000 and $75.7 million (18 percent) in FY 2001.
                                        Distribution of formula funds to the 17 1890 LGIs totaled about $54 million
                                        in FY 2000 and $58 million in FY 2001.

                                        We reviewed documents and interviewed officials at the CSREES National
                                        Office in Washington, D.C., on several occasions. OIG visited four 1862
                                        LGIs that were required to expend formula funds totaling about $3.2 million
                                        on AREERA activities in FY 2000 and $3.7 million in FY 2001. We visited
                                        one 1890 LGI that received formula funds totaling about $2.6 million in FY
                                        2000 and $2.75 million in FY 2001. We also visited one public accounting
                                        firm in El Paso, Texas, to review its workpapers with respect to its A-133
                                        audit of one of the LGIs we visited. (See exhibit C.)

                                        We also contacted other 1862 and 1890 LGIs by telephone or written
                                        correspondence to verify and discuss data concerning compliance with
                                        AREERA activities. We did not include in the scope of our work the insular
                                        LGIs in Puerto Rico, the Virgin Islands, American Samoa, Micronesia,
                                        Northern Marianas, and Guam because not all AREERA activities are
                                        required of them.

                                        To determine if CSREES appropriately implemented sections 105 and 204 of
                                        the AREERA requirements, we reviewed forms documenting the 51 LGIs’
                                        computations of their FY 1997 base percentages and their selections of the

46
     Formula funds were distributed to the 50 States and the District of Columbia, who further distributed them to the 1862 LGIs.
USDA/OIG-A/13001-3-Te                                                                                                               Page 30
                                       target percentages for expenditures on AREERA activities. We obtained
                                       copies of the forms (CSREES-BASE, CSREES-TARG, and CSREES-PLAN)
                                       from CSREES’ Office of Extramural Programs. These forms were designed
                                       to support the LGIs selections of the target percentages to perform the multi-
                                       State extension and integrated research and extension activities. (These three
                                       activities constitute AREERA mandated activities.)

                                       To evaluate the adequacy of CSREES’ review and approval process for
                                       POWs, we reviewed 30 of 75 POW submitted by the 51 LGIs. Further, we
                                       reviewed all letters the Administrator sent to the LGI approving their POWs
                                       to determine whether CSREES released the formula funds only after
                                       approving the POWs, as required by AREERA.

                                       To determine whether LGIs expended Federal formula funds in amounts
                                       required by AREERA, we compared amounts the 51 LGIs reported to
                                       CSREES as being expended for AREERA activities, in their annual report
                                       and/or CSREES-REPT, with the expenditures47 required for each AREERA
                                       activity in FYs 2000 and 2001.

                                       To determine whether 1890 LGIs met their matching requirements, we
                                       reviewed copies of the Certificate of Offset and Entitlement, Form CSREES-
                                       2103, and Financial Status Report, Form SF-269, for the 17 LGIs. We also
                                       reviewed form SF-269 for 24 of the 51 1862 LGIs to determine the
                                       availability of carryover funds to meet deficiencies in FY 2000 expenditures
                                       for AREERA activities.

                                       We analyzed the data presented to meet the objectives of the audit and to
                                       determine if the AREERA requirements were met. We performed the audit in
                                       accordance with generally accepted Government Auditing Standards.




47
     Determined by multiplying formula fund distribution amounts by target percentage selected for each AREERA activity.
USDA/OIG-A/13001-3-Te                                                                                                      Page 31
  Exhibit A – Summary of Monetary Results
                                                                        Exhibit A – Page 1 of 1



Finding   Recommendation
Number    Number           Description               Amount         Category
   2             6         Formula Funds Prematurely $   482,400    Funds to be Put to
                           Released                                 Better Use –
                                                                    Operating Savings
   3            12         Required Expenditures Not $ 14,423,970   Unsupported Costs –
                           Met                                      Recovery
                                                                    Recommended
   4            16         Federal Formula Funds Not $ 16,071,061   Unsupported Costs –
                           Matched                                  Recovery
                                                                    Recommended




  USDA/OIG-A/13001-3-Te                                                              Page 32
Exhibit B – CSREES Response
                              Exhibit B – Page 1 of 9




USDA/OIG-A/13001-3-Te                          Page 33
                        Exhibit B – Page 2 of 9




USDA/OIG-A/13001-3-Te                Page 34
                        Exhibit B – Page 3 of 9




USDA/OIG-A/13001-3-Te                Page 35
                        Exhibit B – Page 4 of 9




USDA/OIG-A/13001-3-Te                Page 36
                        Exhibit B – Page 5 of 9




USDA/OIG-A/13001-3-Te                Page 37
                        Exhibit B – Page 6 of 9




USDA/OIG-A/13001-3-Te                Page 38
                        Exhibit B – Page 7 of 9




USDA/OIG-A/13001-3-Te                Page 39
                        Exhibit B – Page 8 of 9




USDA/OIG-A/13001-3-Te                Page 40
                        Exhibit B - Page 9 of 9




USDA/OIG-A/13001-3-Te                Page 41
Exhibit C – Sites Visited
                                                                          Exhibit C – Page 1 of 1

Site Visited                                                   Location


Cooperative State Research, Education, and Extension Service   Washington, D.C.

KPMG, LLP                                                      El Paso, Texas

Auburn University                                              Auburn, Alabama

New Mexico State University                                    Las Cruces, New Mexico

Purdue University                                              West Lafayette, Indiana

University of Arkansas at Pine Bluff                           Pine Bluff, Arkansas

University of Arizona                                          Tucson, Arizona




USDA/OIG-A/13001-3-Te                                                                  Page 42
Exhibit D – LGIs Not Computing Base Percentages
                                                                                                             Exhibit D – Page 1 of 1

A R E E R A Activity
                                                                                                      Selected
                                               Multi-State             Integrated        Integrated   Any Target
Land-Grant Institution                         Extension               Extension         Research     0 to 5%

Auburn University                                      x                    x

Colorado State University                              x                    x               x

University of Florida                                  x                                    x

Purdue University                                      x                    x               x            x

Michigan State University                              x                    x               x            x

University of Minnesota                                x                    x                            x

Mississippi State University                           x                                                 x

North Carolina State University                                             x

North Dakota State University48                                             x               x            x

Ohio State University                                  x                    x                            x

Oregon State University                                x                    x                            x

University of Rhode Island                             x                    x

Utah State University                                  x                    x                            x

Virginia Polytechnic Institute
 and State University                                  x                    x               x

Washington State University                            x                    x               x            x

University of Wisconsin                                x                    x                            x
 ________________________________________________________________________________
16 LGIs                                              14                   14                7           10


48
     Form CSREES-BASE did not explain reasons for failure to compute base percentages.
USDA/OIG-A/13001-3-Te                                                                                                     Page 43
Exhibit E – Improperly Approved POWs
                                       Exhibit E– Page 1 of 1




USDA/OIG-A/13001-3-Te                              Page 44
    Exhibit F – Conditionally Approved POWs
                                                                                                                                   Exhibit F– Page 1 of 1




                                                                                                    POWs        49




                                                                                                    Combined
                                                                                                    Extension
                                                                                                    Research
                                                         LGIs


                           University of Connecticut                                                           X
                           University of Kentucky                                                   X
                           Kentucky State University                                                X
                           University of Minnesota                                                  X X
                           Alcorn State University50                                                X
                           North Carolina A&T State University                                      X
                           Rutgers State University                                                            X
                           South Dakota State University51                                                     X
                           Texas A&M University                                                       X
                           Utah State University49                                                  X
                           University of Wisconsin                                                  X X




49
   LGIs could submit a POW for an institution’s individual activity (research or extension), for an individual institution (combining research and extension
activities), for Statewide activity (multiply institutions with research or extension) or for any combination of these.
50
   Revised POW submitted by the LGI did not correct deficiencies identified by CSREES.
51
   LGI adequately revised its POW and submitted it on February 4, 2000.
USDA/OIG-A/13001-3-Te                                                                                                                            Page 45
Exhibit G – 1862 LGIs Reporting AREERA Expenditure Requirements Not Met –
FYs 2000/2001
                                                           Exhibit G– Page 1 of 2




USDA/OIG-A/13001-3-Te                                                   Page 46
                        Exhibit G– Page 2 of 2




USDA/OIG-A/13001-3-Te              Page 47
Exhibit H         –     1890   LGIs   Reported   Formula   Funds   Not   Matched         –
FYs 2000/2001
                                                                    Exhibit H – Page 1 of 1




USDA/OIG-A/13001-3-Te                                                            Page 48
Informational copies of this report have been distributed to:

Agency Liaison Officer                                          (5)
Government Accountability Office                                (2)
Office of Management and Budget                                 (1)
Director, Planning and Accountability Division, OCFO            (1)
OIG Headquarters, Director FFAD                                 (1)
